                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              CONSORTIUM FOR WORKER EDUCATION
                                              EARMARK GRANT




                                                                  Date Issued: February 29, 2008
                                                                  Report Number: 02-08-203-03-390
U.S. Department of Labor                              FEBRUARY 2008
Office of Inspector General
Office of Audit                                       CONSORTIUM FOR WORKER
                                                      EDUCATION EARMARK GRANT

BRIEFLY . . .                                         WHAT OIG FOUND
                                                      CWE established the EEC program and
Highlights of Report Number 02-08-203-03-390,
Consortium for Worker Education Earmark Grant, to     provided services to workers and employers
the Assistant Secretary for Employment and Training   impacted by the events of September 11, 2001.
                                                      However:
WHY READ THE REPORT
The Employment and Training Administration            • CWE charged costs to the grant that were
(ETA) awarded a $32.5 million earmark grant to          not allowable and allocable, and did not
the Consortium for Worker Education (CWE) to            maintain adequate documentation to
establish the Emergency Employment                      demonstrate participant eligibility and
Clearinghouse (EEC) and provide employment              services provided. As a result, we question
services to participants and employers                  costs of $11.3 million.
impacted by the events of September 11, 2001.
Services to be provided included individual           • CWE did not demonstrate that a statistical
assessments, training, job placement, and a             sample of non-wage subsidy participants
wage subsidy incentive program to help                  received employment services. The value of
employers hire, retain, and/or rehire workers.          services claimed for non-wage subsidy
                                                        participants that may be subject to recovery
For the period April 1, 2002, through                   was $13.3 million.
December 31, 2004, CWE reported
expenditures of $32.4 million and participant         • CWE was not able to provide documentation
enrollments of 24,195.                                  to support reported participant outcomes for
                                                        4 of 5 performance outcome measures.
WHY OIG CONDUCTED THE AUDIT
The audit objectives were to determine:               • ETA grant monitors identified financial and
                                                        performance issues similar to those noted in
1. Were reported costs allowable, allocable,            our report. While ETA monitors performed
   and reasonable in accordance with Federal            some follow-up, the issues were not
   requirements?                                        adequately corrected by CWE.

2. Did CWE establish the EEC and provide              WHAT OIG RECOMMENDED
   employment services to participants and            The OIG recommended the Assistant Secretary
   employers impacted by the events of                for Employment and Training: recover
   September 11, 2001?                                questioned costs of $11.3 million; require CWE
                                                      to document eligibility and services for non-
3. What were the outcomes for participants?           wage subsidy participants; and review and
                                                      improve ETA’s monitoring process.
READ THE FULL REPORT
To view the report, including the scope,              In its response to the draft report, CWE
methodology, and agency response, go to:              disagreed with the report’s findings. CWE cited
                                                      difficulties in locating files from closed centers
http://www.oig.dol.gov/public/reports/oa/200          and disagreements about accounting
8/02-08-203-03-390.pdf                                methodologies.

                                                      ETA officials stated that they would provide
                                                      comments after receiving the final report.
                                                                                                 CWE Earmark Grant




Table of Contents
                                                                                                                  PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    1. Reported Costs of $10,686,634 Were Not Allowable and
       Allocable in Accordance with Federal Requirements ..................................... 8

    2. CWE Established the Emergency Employment Clearinghouse, but
       Overstated Enrollments, Claimed Ineligible Participants, and Could
       Not Demonstrate That Non-Wage Subsidy Participants Received
       Employment Services – Questioned Costs of $577,920 ............................... 16

    3. Four of Five Reported Outcome Measures Were Unauditable ..................... 21


EXHIBIT

    Schedule of Claimed, Sampled, and Questioned Costs..................................... 25


APPENDICES

    A. Background....................................................................................................... 29

    B. Objectives, Scope, Methodology, and Criteria............................................... 31

    C. Acronyms and Abbreviations.......................................................................... 35

    D. Auditee Response ............................................................................................ 37




U.S. Department of Labor – Office of Inspector General                                                                   1
Report Number: 02-08-203-03-390
CWE Earmark Grant




              THIS PAGE INTENTIONALLY LEFT BLANK




2                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-08-203-03-390
                                                                                                     CWE Earmark Grant



Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the
$32.5 million earmark 1 grant awarded to Consortium for Worker Education (CWE) in
New York, New York. Our audit covered the period April 1, 2002, through
December 31, 2004.

The purpose of the earmark grant was to establish the Emergency Employment
Clearinghouse (EEC) and provide employment services to participants and employers
impacted by the events of September 11, 2001. Services to be provided included
individual assessments, training, job placement, and a wage subsidy incentive program
to help employers hire, retain, and/or rehire workers.

The audit objectives were to determine the following:

       1. Were reported costs allowable, allocable, and reasonable in accordance with
          Federal requirements?

       2. Did CWE establish the EEC and provide employment services to participants and
          employers impacted by the events of September 11, 2001?

       3. What were the outcomes for participants?

Results

CWE reported expenditures of $32,428,797 for operating and administering the EEC
grant on its Financial Status Report (FSR). Generally, costs charged to the grant were
not allowable and allocable, nor was adequate documentation maintained to
demonstrate participant eligibility and services provided. As a result, we question costs
of $11,264,554. Further, CWE was not able to provide documentation to support
reported participant outcomes; therefore, the reported data for four of five outcome
measures were unauditable. Additionally, Employment and Training Administration
(ETA) grant monitors identified some financial and performance issues similar to those
noted in this report, such as excessive wage subsidies. While ETA monitors performed
some follow-up, the issues were not adequately corrected by CWE.

       1. Applicable Federal requirements were not followed when charging costs to the
          grant. This occurred because adequate controls were not maintained to ensure
          that actual costs incurred reconciled to those reported on its FSR. Further,
          systems were not maintained to ensure that reported costs were adequately
          documented, allocated based on benefits received, and complied with the terms
          of the grant. As a result, CWE reported unallowable costs of $10,686,634
          consisting of unsupported or excessive wage subsidy costs of $5,359,333;

1
    An earmark grant is awarded with funds set aside from an appropriation for a specific purpose.



U.S. Department of Labor – Office of Inspector General                                                              3
Report Number: 02-08-203-03-390
CWE Earmark Grant


       unsupported FSR costs of $2,468,540; unallocable Instructors’ Salaries of
       $2,175,923; and unsupported and unallocable Other Than Personnel Services
       (OTPS) costs of $682,838.

2. CWE established the EEC program to provide services to workers and employers
   impacted by the events of September 11, 2001. The services were provided at 27
   centers which were responsible for training, placement, wage subsidy, retention, and
   referrals to other programs.

    The grant required CWE to register 20,600 participants who were impacted by the
    events of September 11, 2001, into its programs. CWE reported it registered 24,195
    enrolled participants, but only documented 20,513 registered participants of which
    366 were ineligible and 115 were missing support documentation. As a result, we
    question related costs of $577,920. Furthermore, CWE officials did not demonstrate
    that a statistical sample of non-wage subsidy participants received employment
    services. The value of services claimed for non-wage subsidy participants that may
    be subject to recovery was $13,325,091.

3. CWE reported that it achieved the performance goals established in the EEC grant.
   However, CWE did not meet its goal for wage subsidies nor provide documentation
   verifying other reported outcomes. CWE’s performance goal for wage subsidies was
   3,331 participants and CWE reported that 3,323 participants received wage
   subsidies. However, CWE records only documented 2,820 wage subsidy
   participants. For training, placements, retention, and referrals to other programs,
   CWE did not maintain detailed outcome data and was unable to provide supporting
   documentation to verify reported participant outcomes. As a result, four of five
   reported outcome measures were unauditable.

Auditee Response

In its response to the draft report, CWE stated that it disagreed with the report’s
findings. CWE cited issues related to locating files from closed centers and
disagreements about accounting methodologies. CWE stated, “We are confident that
an overall review of documents both reviewed and now-available will resolve any of the
issues addressed in the Draft Report.”

CWE’s response to the draft report is included in its entirety in Appendix D.

ETA Response

ETA stated that its policy is not to comment on draft reports resulting from audits of its
grantees. ETA stated that it will respond to the final report.




4                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-08-203-03-390
                                                                       CWE Earmark Grant


OIG Conclusion

CWE’s response to the draft report provided no additional documentation; therefore, our
report findings remain unchanged.

The Code of Federal Regulations (CFR), Part 29, Subpart 95, “Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,”
Section 95.53(e) states that OIG has the right of timely and unrestricted access to any
books, documents, papers, or other records of recipients that are pertinent to the
awards, in order to conduct audits. CWE was given several opportunities to provide
additional documentation both during and subsequent to fieldwork. CWE was notified
that the OIG would accept and evaluate any documentation provided prior to the draft
report response deadline. CWE promised to deliver certain documents by December
31, 2007; however, it has not provided any documents since December 5, 2007. CWE
also claimed that it would provide additional documentation along with its response to
the draft report, but did not do so.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

   •   Recover questioned costs of $11,264,554, consisting of unallowable costs of
       $10,686,634, and ineligible participants and participants with missing
       documentation of $577,920.

   •   Improve ETA’s monitoring to cover financial areas contained within this report.

   •   Review ETA’s monitoring process to ensure ETA verifies that grantees have
       implemented effective corrective actions.

   •   Require CWE to document the eligibility and services provided to the unsampled
       17,373 non-wage subsidy participants. If during the resolution phase, CWE
       cannot substantiate to the Grant Officer the eligibility and services provided to
       such individuals, we recommend the Grant Officer recover $767 for each
       undocumented individual, a total potential recovery of $13,325,091.




U.S. Department of Labor – Office of Inspector General                                    5
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




6                                U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                                              CWE Earmark Grant


U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                          Assistant Inspector General’s Report

February 29, 2008


Mr. Brent Orrell
Deputy Assistant Secretary
  for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


The OIG conducted a performance audit of CWE’s $32.5 million earmark grant number
AF-12214-02-60 awarded for the period April 1, 2002, through December 31, 2004.
CWE was established in 1985 as a not-for-profit agency that provides a wide array of
employment, training, and education services to New York City workers.

The purpose of the earmark grant was to establish the EEC and provide employment
services to participants and employers impacted by the events of September 11, 2001.
Services to be provided included individual assessments, training, job placement, and a
wage subsidy incentive program to help employers hire, retain, and/or rehire workers.

The audit objectives were to determine the following:

   1. Were reported costs allowable, allocable, and reasonable in accordance with
      Federal requirements?

   2. Did CWE establish the EEC and provide employment services to participants and
      employers impacted by the events of September 11, 2001?

   3. What were the outcomes for participants?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.


U.S. Department of Labor – Office of Inspector General                                       7
Report Number: 02-08-203-03-390
CWE Earmark Grant


Objective 1 – Were Reported Costs Allowable, Allocable, and Reasonable in
Accordance with Federal Requirements?

Results and Findings – Reported Costs of $10,686,634 Were Not Allowable and
Allocable in Accordance with Federal Requirements.

CWE reported expenditures of $32,428,797 for operating and administering the EEC
grant. However, CWE did not comply with applicable Federal requirements when
charging costs to the grant. This occurred because adequate controls were not
maintained to assure compliance with Federal requirements and terms of the grant.
Additionally, ETA grant monitors identified some financial and performance issues
similar to those noted in this report, such as excessive wage subsidies. While ETA
monitors performed some follow-up, the issues were not adequately corrected by CWE.
As a result, CWE reported unallowable costs of $10,686,634 consisting of unsupported
or excessive wage subsidy costs of $5,359,333; unsupported FSR costs of $2,468,540;
unallocable Instructors’ Salaries of $2,175,923; and unsupported and unallocable OTPS
costs of $682,838.

Office of Management and Budget (OMB) Circular A-122, “Cost Principles for Non-Profit
Organizations,” Attachment A, Section A.2, states that to be allowable under an award,
costs must

        … Be reasonable for the performance of the award and be allocable
       thereto under these principles ... Conform to any limitations or exclusions
       set forth in these principles or in the award as to types or amount of cost
       items … Be adequately documented.

Further, section A.4.a, states:

       A cost is allocable to a particular cost objective, such as a grant, contract,
       project, service, or other activity, in accordance with the relative benefits
       received.

A. Unsupported or Excessive Wage Subsidy Costs of $5,359,333

CWE made payments totaling $13 million to 216 employers for salary reimbursement of
current employees and rehires. These wage subsidies were designed to sustain
businesses impacted by the events of September 11, 2001. The wage subsidies were
disbursed as follows: $5.1 million to 9 healthcare and social assistance employers
(Healthcare), $2.3 million to 66 manufacturing employers, and $5.6 million to 141
employers in various other industries.

The grant required CWE to obtain supporting documentation from participating
employers explaining how they were impacted by September 11, 2001, events.
However, Healthcare employers received subsidies of $5,122,654 without documenting
that they were impacted by the September 11, 2001, events. In addition, CWE paid


8                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-08-203-03-390
                                                                       CWE Earmark Grant


wage subsidies totaling $236,679 that were unsupported or exceeded the terms of the
grant.

Unsupported Healthcare Employer Costs of $5,122,654

Under the Guidelines for Employer Assessment for Wage Subsidy, the grant agreement
required “… an EEC Wage Subsidy application form will be completed and back-up
documentation obtained.” This documentation was used to “… determine if the
business is eligible for Wage Subsidy support, relative to the impact on the business
from the 9/11 events.” Special Clause 11 further states: “Except as specifically
provided, DOL/ETA acceptance of a proposal and an award of federal funds to sponsor
any program(s) does not provide a waiver of any grant requirements and/or
procedures.”

Wage subsidies were paid to Healthcare employers to reimburse them for wages paid
to employees in support service positions such as maintenance workers, clerical staff,
accounting clerks, computer support staff, and administrative managers. However,
CWE did not demonstrate that the Healthcare employers were impacted by the
September 11, 2001, events. As a result, wage subsidies of $5,122,654 are
questioned.

CWE officials explained that the Healthcare employers did not go through the grant-
required application and qualification process; rather, the employers were awarded
wage subsidies based on discussions with representatives of the hospital union (Local
1199). However, documentation of discussions with union representatives was not
provided. Further, CWE could not provide any other documentation demonstrating the
impacts, such as risk of layoffs, job openings not being filled or business decline, that
the Healthcare employers experienced as a result of the events of September 11, 2001.

Unsupported and Excessive Wage Subsidy Costs of $236,679

CWE paid some wage subsidies that did not comply with Federal requirements or the
terms of the grant. This occurred because CWE did not maintain effective controls to
ensure compliance with grant terms. As a result, we question wage subsidy costs of
$236,679 for the following reasons:

   •   $225,478 was not supported with participant payroll records. The grant
       agreement required employers to submit payroll records as backup
       documentation for wage subsidy reimbursement.

   •   $11,201 exceeded negotiated grant terms. The grant agreement capped wage
       subsidy reimbursement at $25.00 per hour, per employee. Negotiated contracts
       between CWE and four individual employers established pay rates and hours
       worked that exceeded allowable amounts for specific positions.




U.S. Department of Labor – Office of Inspector General                                   9
Report Number: 02-08-203-03-390
CWE Earmark Grant


B. Unsupported FSR Costs of $2,468,540

CWE claimed costs for Indirect Costs ($1,039,691); Other Expenses, Supplies, and
Wage Subsidies ($1,013,182); and Pre-Award Costs ($415,667) without maintaining
adequate supporting documentation. As a result, we question unsupported costs of
$2,468,540.

29 CFR 95.21(b)(1) requires grant recipients to maintain accurate, current, and
complete disclosure of the financial results of each Federally-sponsored project or
program. Further, OMB Circular A-122, Attachment A, Section A.2.g requires that to be
allowable under an award, costs must “… Be adequately documented.”

Indirect Costs of $1,039,691

OMB Circular A-122, Attachment A, Section B (1) states:

        Direct costs are those that can be identified specifically with a particular
        final cost objective, i.e., a particular award, project, service, or other direct
        activity of an organization. However, a cost may not be assigned to an
        award as a direct cost if any other cost incurred for the same purpose, in
        like circumstance, has been allocated to an award as an indirect cost. . . .
        (Underscoring added.)

CWE reported Indirect Costs based on the grant budget. 2 CWE did not accumulate
actual costs in an indirect cost pool and allocate those costs based on benefits
received, as required by OMB Circular A-122. Further, CWE directly charged costs to
the grant that were also included in the proposed indirect cost pool. CWE did not have
a methodology for accumulating indirect costs or accounting for indirect time. As a
result, the entire amount of indirect costs of $1,039,691 is questioned.

CWE did not maintain a system to account for indirect costs in its general ledger and
timesheets. Officials were not able to identify any accounting code for indirect costs.
CWE staff charged only direct time on their timesheets because the timesheets were
pre-printed with grants and programs, but did not have an area to designate indirect
time. Our review of sampled executive staff timesheets found that their time was
charged directly to various grants and programs.

Judgmental samples of $128,783 paid to executive employees whose salaries were
included in the indirect cost pool revealed that costs were reported both on a direct and
indirect basis. The Indirect Cost Proposal submitted to the Department of Labor’s
(DOL) Office of Cost Determination designated job titles of these CWE executive and
administrative staff within the indirect cost pool. In the general ledger salary accounts,
executive and administrative staff were listed by name and percentage of salary, and
charged directly to the EEC grant. For example, the Executive Assistant to the

2
 Modification Number 2 effective June 10, 2004, set the provisional rate at 15 percent of direct salaries
and fringe benefits, or $1,039,691.

10                                             U.S. Department of Labor – Office of Inspector General
                                                                   Report Number: 02-08-203-03-390
                                                                                     CWE Earmark Grant


Chairman and the Director of Labor Relations were listed at 100 percent time charged in
the indirect cost pool. However, in addition to being considered within the indirect cost
pool, the Executive Assistant to the Chairman was charged 80 percent, and the Director
of Labor Relations was charged 50 percent directly to the EEC grant. The balance of
their time was charged directly to other grants.

Other Expenses, Supplies, and Wage Subsidy Costs of $1,013,182

CWE was unable to provide adequate documentation in its general ledger to support
individual line items reported on the Grantee’s Detailed Statement of Costs, which
supports the final FSR dated May 10, 2005. As a result, specific FSR line items totaling
$1,013,182 are questioned. 3 Review of the reported amounts revealed CWE reported
the identical amounts requested in its grant budget.

                                  Other Expenses          $ 703,260
                                  Supplies                   229,371
                                  Wage Subsidies              80,551
                                                          $1,013,182


On four occasions, CWE officials attempted to reconcile the general ledger to the
amounts reported; however, crosswalks provided were irreconcilable and varied each
time they were produced. According to CWE officials, this was caused by the lack of a
full-time comptroller as well as the loss of its Chief Finance Officer. Further, CWE
officials stated the accounting software program used was inadequate, and that the
general ledger did not reflect actual financial results of operations. Subsequent to the
grant period, a full-time comptroller was hired, and the CFO and the accounting
software were replaced.

In response to this issue, CWE provided a revised version of the general ledger at the
Exit Conference. We requested journal entries to support some of the general ledger
revisions. However, the support provided was still based on grant estimates and did not
reflect the actual financial results of operations. Therefore, the additional
documentation was not adequate, and was not accepted for audit purposes.

Pre-Award Costs of $415,667

The grant authorized pre-award costs of $415,667. CWE reported pre-award costs, but
did not accumulate pre-award costs in its general ledger. In addition, CWE did not
provide supporting documentation for claimed pre-award costs demonstrating these
costs were incurred prior to the grant period and necessary for grant operations.
Review of reported amounts indicated CWE reported the identical amount requested in

3
  CWE overspent other line items by $712,410, but did not claim the costs on the final FSR.
Under the grant Special Clause 1, CWE had the flexibility to shift up to 20 percent of grant budget
line items except wages, salaries and fringe benefits. CWE did not exercise the flexibility clause
before the grant was closed. Therefore, any potential cost offsets would have to be discussed
with the Grant Officer during audit resolution.

U.S. Department of Labor – Office of Inspector General                                                11
Report Number: 02-08-203-03-390
CWE Earmark Grant


its grant budget. The CWE Budget Director stated that costs were not separately
tracked. Therefore, it is possible that these costs were reported elsewhere. As a result,
pre-award costs of $415,667 were unsupported and are questioned.

C. Unallocable Instructors’ Salary Costs of $2,175,923

CWE allocated Instructors’ Salaries without documentation to support that the charges
were in accordance with benefits received by the grant. Although a portion of these
costs may be allocable to the EEC grant, CWE did not provide documentation that
would allow for a determination of the proportionate benefit received. As a result, we
question Instructors’ Salaries of $2,175,923.

OMB Circular A-122, Attachment B, Paragraph 8.m, states:

         … The distribution of salaries and wages to awards must be
         supported by personnel activity reports … except when a substitute
         system has been approved in writing by the cognizant agency…
         (a) The reports must reflect an after-the-fact determination of the
         actual activity of each employee …

CWE officials stated Instructors’ Salaries were allocated based on student composition,
and all Instructors’ Salaries allocated to the EEC grant were for classes exclusively for
EEC participants. However, CWE did not provide the appropriate labor distributions,
allocation worksheets or time cards to support the allocation of the amounts reported.
Moreover, the class rosters showed that both EEC and non-EEC students attended
classes. However, CWE charged 100 percent of the Instructors Salaries for the classes
to the EEC grant. Instructors’ Salaries were not allocated to the grant based on relative
benefits received.

D. Unsupported and Unallocable OTPS Costs of $682,838

CWE reported OTPS 4 costs of $10,715,869. Of this amount, we question $682,838 for
costs allocated to the grant without support for the proportionate benefits received. This
occurred because CWE lacked adequate controls regarding record retrieval and
allocation of grant costs.

     •   Supporting documentation of $383,835 was not provided. Officials stated they
         were unable to locate documentation warehoused at an outside archiving
         company because invoices were not filed according to the archive inventory list
         or may have been misplaced.

     •   National Emergency Grant (NEG) expenditures of $113,332 were allocated to the
         EEC grant. Invoices reviewed denoted the accounting code for “NEG” which
         indicated the charges should not have been allocated to the EEC grant.

4
 OTPS was the combination of the Supportive Services, Supplies, Facilities and Communication,
Equipment and Other line items.

12                                           U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 02-08-203-03-390
                                                                           CWE Earmark Grant




   •   CWE expended $185,671 for leasing computer equipment without providing
       sufficient documentation for the cost. CWE officials only provided the lease
       agreement, which did not detail the cost or applicability to the EEC grant.

Auditee Response

In its response to the draft report, CWE stated that it disagreed with the report’s findings
and provided comments on each of the following areas of questioned costs:

   •   Healthcare Employer Wage Subsidy Costs: CWE provided documentation on
       December 5, 2007, that it claimed substantiated that CWE pre-qualified and
       vetted the affected healthcare institutions for wage subsidy allocations.

   •   Unsupported and Excessive Wage Subsidy Costs: CWE claimed that backup
       payroll records and adjustments are demonstrably accurate and are in
       compliance with grant guidelines.

   •   Indirect Costs: CWE stated that it expects to complete the proposal for the final
       indirect cost rate application for 2002, 2003 and 2004, by March 1, 2008. CWE
       further stated that it expects the grant’s final indirect rates to be in excess of the
       15 percent indirect rate allowed by the grant.

   •   Other Expenses, Supplies, and Wage Subsidies: CWE claimed that the report
       issue was on how certain costs were allocated to line items and that the basis for
       allocation, a percentage of direct-charged staff, was consistent with the
       methodology used in previous grant and contracts with the State and City of New
       York.

   •   Pre-Award Costs: CWE disagreed with our finding that it could not identify the
       claimed pre-award costs in the general ledger. CWE stated, “Despite the issues
       with CWE’s “crosswalk” general ledger, CWE’s program costs spent during the
       pre-award timeframe were both appropriate and demonstrable.”

   •   Unallocable Instructors’ Salary Costs: According to CWE, in order to pay for 100
       percent of the instructor’s time, a minimum of 10 EEC students were necessary;
       additional students were allowed to attend classes that already met the minimum
       enrollment; instructor costs were not charged to any other grant; and other costs
       for additional students were charged to other sources of funds when available
       and appropriate.

CWE’s response to the draft report is included in its entirety in Appendix D.




U.S. Department of Labor – Office of Inspector General                                      13
Report Number: 02-08-203-03-390
CWE Earmark Grant


ETA Response

ETA stated that its policy is not to comment on the draft reports resulting from audits of
its grantees. ETA stated that it will respond to the final report.

OIG Conclusion

CWE’s response to the draft report provided no additional documentation; therefore, the
report findings remain unchanged.

29 CFR 95.53(e) states that OIG has the right of timely and unrestricted access to any
books, documents, papers, or other records of recipients that are pertinent to the
awards, in order to conduct audits. CWE now claims to have other documentation
available that would support its claims, but did not provide such documentation during
our fieldwork, or as part of its response to the draft report.

Our conclusions related to CWE’s comments on specific areas of questioned costs are
presented below.

     •   Healthcare Employer Wage Subsidy Costs: The documents provided by CWE do
         not demonstrate that Healthcare employers completed the application and
         backup documents required by the grant to demonstrate their eligibility for wage
         subsidies. CWE provided documentation of business declines and potential
         layoffs for non-Healthcare employers. CWE did not provide such documentation
         for Healthcare employers. Instead, CWE provided a proposal to train dislocated
         workers for jobs in Healthcare, which was described as a growth industry with a
         shortage of qualified workers. For four of nine Healthcare employers, CWE
         provided documents which were dated subsequent to the date on which the
         wage subsidy contracts were signed, and did not support eligibility for wage
         subsidies. The documentation for Brooklyn Hospital was an accounts receivable
         confirmation pursuant to its annual financial audit for 2003. Documentation for
         Mount Sinai, Flushing and Jamaica Hospitals consisted of letters from those
         institutions thanking CWE for the wage subsidies.

     •   Unsupported and Excessive Wage Subsidy Costs: CWE provided no additional
         documentation, nor did CWE provide evidence of a grant waiver or modification
         of the requirement to cap wage subsidy reimbursement at $25.00 per hour, per
         employee.

     •   Indirect Costs: CWE’s response did not address our findings related to
         accounting for actual indirect costs and the need to develop controls to prevent
         duplicate charging of direct and indirect costs.

     •   Other Expenses, Supplies, and Wage Subsidies: CWE’s response did not
         address our finding that CWE claimed costs on the FSR which were not
         supported in its general ledger.


14                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-08-203-03-390
                                                                      CWE Earmark Grant


   •   Pre-Award Costs: CWE’s response did not provide documentation to support its
       assurances that pre-award costs were both appropriate and demonstrable. CWE
       has not demonstrated that the pre-award costs were accumulated in the general
       ledger and were not duplicative of other reported grant costs.

   •   Instructors’ Salary Costs: CWE’s response confirmed that it used grant funds
       improperly to subsidize the training of non-EEC students.

   •   OTPS Costs: CWE’s response did not address this area of costs.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

1. Recover questioned costs of $10,686,634.

2. Improve ETA’s monitoring to cover financial areas contained within this report.

3. Review ETA’s monitoring process to ensure ETA verifies that grantees have
   implemented effective corrective actions.




U.S. Department of Labor – Office of Inspector General                                15
Report Number: 02-08-203-03-390
CWE Earmark Grant


Objective 2 – Did CWE Establish the EEC and Provide Employment Services to
Participants Impacted by the Events of September 11, 2001?

Results and Findings – CWE Established the EEC, but Overstated Enrollments,
Claimed Ineligible Participants, and Could Not Demonstrate That Non-Wage
Subsidy Participants Received Employment Services – Questioned Costs of
$577,920.

CWE established the EEC program to provide services to workers and employers
impacted by the events of September 11, 2001. Services were provided at 27 centers
which were responsible for training, placement, wage subsidy, retention, and referrals to
other programs.

CWE overstated the number of participants enrolled in the EEC program by 18 percent.
The grant required CWE to enroll 20,600 participants who were impacted by the events
of September 11, 2001. CWE reported it enrolled 24,195 participants. However, CWE
provided documentation to support the enrollment of 20,513 participants, and, therefore,
reported enrollments were overstated by 3,682.

Of the 20,513 documented enrollments, CWE claimed 366 ineligible participants and
115 participants with missing documentation. As a result, we question costs of
$577,920 for ineligible and undocumented participants. Furthermore, CWE officials did
not demonstrate that a statistical sample of non-wage subsidy participants received
employment services. The value of services claimed for non-wage subsidy participants
that may be subject to recovery was $13,325,091.

A. CWE Overstated Participant Enrollments

Under the provisions of 29 CFR 95.51(d)(1), grant recipients are required to report
actual accomplishments of the goals and objectives established for the period. In the
Final Quarterly Project Activity Report submitted with the final FSR, CWE reported that
24,195 participants were enrolled. However, CWE provided documentation that
supported the enrollment of 20,513 participants. Analysis of detailed participant data
from the 27 centers and 216 wage subsidy employers revealed duplicative enrollments,
an unexplained difference between reported and detailed enrollments, and missing
enrollment documentation from two centers. As a result, participant enrollments were
overstated by 3,682 and costs of $151,225 are questioned for the two centers with
missing documentation.

               Reported to ETA                                      24,195
               Less:
                Duplicative Enrollments                 2,492
                Unexplained Difference                    934
                2 Centers Missing Documentation           256        3,682
               Documented Enrollments                               20,513



16                                     U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-203-03-390
                                                                         CWE Earmark Grant


Duplicative Enrollments

An analysis of participant Social Security Numbers (SSNs) identified 2,492 duplicative
enrollments. Participants were either (1) reported at more than one center and/or
employer, or (2) reported more than once at the same center or employer. The
duplications occurred because CWE did not consolidate participant data to identify and
eliminate duplicate enrollments.

Unexplained Difference

Comparison between reported and documented enrollments revealed an unexplained
difference of 934 participant enrollments. CWE did not provide documentation to
support that the 934 reported enrollments represented eligible participants served at the
centers and/or employers.

Two Centers Missing Documentation

CWE had no documentation for 256 participant enrollments attributed to two centers
operated by CWE contractors. The contractors, International Association of Machinists
Center for Administering Rehabilitation and Employment Services (IAM CARES) and
Fort Greene Strategic Neighborhood Action Partnership (SNAP), were paid $170,036
and $50,266, respectively, representing a total of $220,302. As costs of $69,077 for
IAM CARES were previously questioned as unsupported OTPS costs (finding 1.C.),
total undocumented enrollments of $151,225 are questioned.

B. CWE Claimed Ineligible Participants

CWE did not provide adequate documentation to support the eligibility of 366 program
participants.

WIA Title I, Subtitle E, Section 188(a)(5), Prohibition on Discrimination Against Certain
Non-citizens, requires that participation in programs shall be for individuals authorized
to work in the United States. According to the Social Security Administration (SSA),
without exception individuals must have a Social Security Number (SSN) in order to
work in this country. Further, the grant states that to be eligible for the program, a
participant was required to complete and sign a self-certification form attesting that they
were impacted by the events of September 11, 2001.

CWE enrolled 357 participants without documentation that the individuals were
authorized to work in the United States.

   •   201 participants had invalid SSNs according to SSA’s valid ranges of issued
       numbers; and

   •   156 participants were enrolled without documentation of their SSNs.




U.S. Department of Labor – Office of Inspector General                                   17
Report Number: 02-08-203-03-390
CWE Earmark Grant


In addition, CWE did not document whether nine sampled participants were impacted
by September 11, 2001, events. These nine participants did not have the self-
certification form required by the grant, and CWE did not otherwise document that the
individuals were impacted by September 11, 2001, events.

CWE’s average cost per program participant was $3,174 for wage subsidy participants
and $767 for non-wage subsidy participants. We question $338,490 of costs incurred
for ineligible participants, as shown below:

          24 Ineligible Wage Subsidy Participants X $3,174 =                           $ 76,176
          342 Ineligible Non-wage Subsidy Participants X $767 =                         262,314
          Total Questioned Costs Related to Ineligible Participants                    $338,490


C. CWE Could Not Demonstrate That a Statistical Sample of Non-Wage Subsidy
   Participants Received Employment Services

29 CFR 95.53(b), “Retention and Access Requirements for Records,” states:

          Financial records, supporting documents, statistical records, and all other
          records pertinent to an award shall be retained for a period of three years
          from the date of submission of the final expenditure report …

For a judgmental sample of 82 non-wage subsidy participants, we conducted tests to
determine eligibility, services provided, and outcomes. CWE was unable to provide
documentation for 15 participants. In addition, 9 participants were found to be ineligible
(refer to finding 2B).

Testing of the judgmental sample resulted in a 29 percent error rate; therefore, we
selected a statistically generated random sample of 100 participants to determine if the
errors were pervasive throughout CWE’s universe of 17,555 documented non-wage
subsidy enrollments. Despite multiple requests, CWE officials did not provide any of the
100 participant files requested. Further, in the Management Representation Letter,
dated July 14, 2006, CWE’s Executive Director affirmed that CWE had made available
all participant records.

CWE accounted for participant services separately for wage subsidy and non-wage
subsidy costs. The average cost for non-wage subsidy participants was $767. 5 Based
on this average cost, we question $88,205, consisting of $11,505 due to lack of
documentation for the 15 participants from the judgmental sample, and $76,700 due to
lack of documentation for the 100 participants from the statistical sample. Furthermore,
as requested files were not provided for any of the 100 participants in the statistical
sample, there is the potential for an additional recovery of $767 for each undocumented



5
    Adjustments were made to offset specific questioned costs in other findings. See attachment A.

18                                              U.S. Department of Labor – Office of Inspector General
                                                                    Report Number: 02-08-203-03-390
                                                                                    CWE Earmark Grant


non-wage subsidy participant in the universe, with a total potential recovery of
$13,325,091. 6

Auditee Response

In its response to the draft report, CWE stated that it disagreed with the report’s findings
and provided the following comments:

    •   Overstated Participant Enrollments: CWE stated that it is preparing a full
        reconciliation with back-up documentation and will make it available upon
        request.

    •   Two Centers Missing Documentation: CWE stated that it has obtained the
        archived records of Fort Greene SNAP and IAM Cares, and can make those
        records available upon request.

    •   Ineligible Participants – Work Authorization: CWE stated, “… the EEC was not a
        WIA program and therefore not bound by the eligibility guidelines of document
        procurement as a verification measure. Therefore, verification of social security
        numbers was not a requirement for CWE to ascertain from prospective
        participants.”

    •   Ineligible Participants – September 11 Impact: CWE stated that it and the EEC
        intake centers relied solely upon the veracity of self-attestation claims that these
        individuals were impacted by September 11, 2001.

    •   Statistical Sample of Non-Wage Subsidy Participants: CWE stated that it has
        located 95 of the 100 records in the statistical sample and can make them
        available for review.

CWE’s response to the draft report is included in its entirety in Appendix D.

OIG Conclusion

CWE’s response to the draft report provided no additional documentation; therefore, our
report findings remain unchanged.

29 CFR 95.53(e) states that OIG has the right of timely and unrestricted access to any
books, documents, papers, or other records of recipients that are pertinent to the
awards, in order to conduct audits. CWE now claims to have other documentation
available that would support its claims, but it did not provide such documentation during
our fieldwork or as part of its response to the draft report.



6
  Potential recovery is based on 17,373 non-wage subsidy participants, which is the universe of 17,555,
less the 182 included in audit samples.

U.S. Department of Labor – Office of Inspector General                                                    19
Report Number: 02-08-203-03-390
CWE Earmark Grant


Our conclusions related to CWE’s specific comments on questioned participant eligibility
and missing documentation are presented below.

     •   Overstated Participant Enrollments: CWE has not completed the reconciliation of
         reported participant enrollments, and therefore, has no documentation to address
         our finding.

     •   Two Centers with Missing Documentation: Although promised, CWE has not
         provided documentation of eligibility and services received for the participants at
         the two centers.

     •   Ineligible Participants – Work Authorization: CWE’s statement that the EEC was
         not a WIA program is incorrect. The grant was awarded to CWE under the
         authority of WIA. By signing the grant agreement, CWE certified full compliance
         with the grant-stated regulations, including “20 CFR 652 et al., Workforce
         Investment Act.”

     •   Ineligible Participants – September 11 Impact: As our finding states, we
         accepted self-attestation as support that participants had been impacted by the
         events of September 11, 2001. CWE’s response did not explain why the self-
         attestations were missing for the nine questioned participants.

     •   Statistical Sample of Participants: Although it promised to do so, CWE did not
         provide documentation of eligibility and services received for the 95 participants
         whose records it claims to have located.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

4. Recover $577,920 of questioned costs for ineligible and undocumented participants
   as follows:

         a. $151,225 for contractor costs paid to SNAP and IAM Cares;

         b. $338,490 for 366 participants without documentation of the authority to work
            and impact of September 11, 2001 events; and

         c. $88,205 for 115 sampled non-wage subsidy participants for whom CWE did
            not produce documentation.

5. Require CWE to document the eligibility and services provided to 17,373 unsampled
   non-wage subsidy participants (17,555 less 182 sampled). If during the resolution
   phase, CWE cannot substantiate to the Grant Officer the eligibility and services
   provided to such individuals, we recommend the Grant Officer recover $767 for each
   undocumented individual, a total potential recovery of $13,325,091.


20                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-08-203-03-390
                                                                        CWE Earmark Grant


Objective 3 – What Were the Outcomes for Participants?

Results and Findings – Four of Five Reported Outcome Measures Were
Unauditable.

CWE reported that it achieved the following outcomes under its EEC grant:

                                                         Grant Reported
                  Outcome Measure                        Goals  Results
                  Training                                5,701  5,701
                  Placements (including subsidies)        5,150  7,012
                  Wage subsidies                          3,331  3,323
                  Retention                               3,863  4,425
                  Referred to other programs              5,150  4,467

29 CFR 95.53(b) states:

       Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years
       from the date of submission of the final expenditure report …

CWE reported that it achieved the performance goals established in the EEC grant.
However, CWE did not meet its goal for wage subsidies nor provide documentation
verifying other reported outcomes. Specifically, CWE’s performance goal for wage
subsidies was 3,331 participants, and CWE reported that 3,323 participants received
wage subsidies. However, CWE records could only document that 2,820 participants
received wage subsidies. For all other outcomes reported, CWE did not maintain
detailed outcome data for the participants and was unable to provide supporting
documentation to support reported participant outcomes. As a result, CWE’s reported
participant outcome data were unauditable.

Regarding placement and retention outcomes, ETA monitors noted that CWE had
difficulties obtaining access to New Hire Index and Unemployment Insurance wage
records from New York State Department of Labor. In a monitoring report dated
September 10, 2003, ETA recommended CWE:

       … for the purpose of program assessment, management and reporting, the
       reviewer recommends the use of supplemental data (such as employee payroll
       records, pay stubs, etc.) in determining retention for wage subsidy participants.
       Since the retention rate is a key management indicator in assessing program
       performance, other valid data sources should be utilized until the wage records
       access issue is finally resolved.

Auditee Response

In its response to the draft report, CWE disagreed with the report’s findings and claimed
that it met or exceeded each milestone set forth in the grant.

U.S. Department of Labor – Office of Inspector General                                     21
Report Number: 02-08-203-03-390
CWE Earmark Grant




CWE’s response to the draft report is included in its entirety in Appendix D.

OIG Conclusion

CWE’s response provided no additional documentation; therefore, our findings remain
unchanged. CWE did not explain why it reported that 3,323 participants receiving wage
subsidies, but only documented 2,820 wage subsidy participants in its records. CWE
provided no documentation to support the outcomes claimed for training, placements,
retention and referrals to other programs.

Recommendation

We are not making specific recommendations related to CWE’s reported participant
outcomes because the grant has expired.




Elliot P. Lewis




22                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




Exhibit




U.S. Department of Labor – Office of Inspector General                 23
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




24                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                                                         CWE Earmark Grant


                                                                                                        EXHIBIT
                                    Consortium for Worker Education
                          Schedule of Claimed, Sampled and Questioned Costs
                         For the Period April 1, 2002, through December 31, 2004




                                                                     Claimed          Sampled      Questioned
                  Budget Line Items/Description
                                                                      Cost             Costs         Cost
Salaries                                                         $    5,201,384 $      5,117,922             -
Fringe Benefits                                                       1,729,890        1,729,890             -
Staff Travel                                                            12,547               -               -
Equipment (Finding 1D)                                                  20,154           20,154 $        20,154
Supplies (Finding 1B)                                                  343,403          229,371         229,371
Facilities & Communications (Finding 1D)                              1,050,427         101,563         101,563
Participants Wages & Fringes                                         13,313,749       13,079,710
 Unallowable Wage Subsidy Costs (Finding 1A)                                                           5,359,333
 Unsupported Costs (Finding 1B)                                                                           80,551
Supportive Services                                                   5,842,316        3,952,052
 Unsupported Costs (Finding 1C)                                                                        2,175,923
 Other Than Personnel Services (Finding 1D)                                                              393,924
 Overstated Enrollments (Finding 2A)                                                                     151,225
Other Expenses                                                        3,459,569        1,868,654
 Unsupported Costs (Finding 1B)                                                                         703,260
 Other Than Personnel Services (Finding 1D)                                                             167,197
Indirect Costs (Finding 1B)                                           1,039,691        1,039,691       1,039,691
Preaward Cost (Finding 1B)                                             415,667          415,667         415,667
Subtotal for Budget Line Items                                   $ 32,428,797 $ 27,554,674 $ 10,837,859
Additional Question Costs Based on Average Participant Costs
       Ineligible Participants (Finding 2B)                                                             338,490
       Undocumented Non-Wage Subsidy Participants (Finding 2C)                                           88,205
Subtotal for Additional Question Costs                           $          -     $          -     $    426,695
Totals                                                           $ 32,428,797 $ 27,554,674 $ 11,264,554




U.S. Department of Labor – Office of Inspector General                                                           25
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




26                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




Appendices




U.S. Department of Labor – Office of Inspector General                 27
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




28                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                                     CWE Earmark Grant


                                                                         APPENDIX A
BACKGROUND

CWE was established in 1985 as a not-for-profit agency that provides a wide array of
employment, training, and education services to New York City workers, including union
members, and dislocated workers. CWE comprises 46 major New York City Central
Labor Council affiliated unions, representing more than 1.4 million New York City
workers.

Earmarks are funds provided by Congress for specific projects or programs and identify
the specific location or recipient to receive the funds. On January 10, 2002, President
Bush signed the Defense Appropriations Act, which earmarked $32.5 million for CWE to
establish the EEC and provide employment services to primary and secondary victims
of the September 11, 2001, tragedy. Services included: (1) individual assessment,
classroom training and job placement; (2) business-related services including in-house
upgrade training, targeted labor exchange, contextualized and customized training; and
(3) a wage subsidy incentive program (totaling $18 million) to help employers hire,
retain and/or rehire workers in impacted businesses.




U.S. Department of Labor – Office of Inspector General                               29
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




30                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                                        CWE Earmark Grant


                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The Office of Inspector General conducted an audit of the earmark grant (number
AF-12214-02-60) awarded to CWE in the amount of $32.5 million for the period
April 1, 2002, through December 31, 2004. The objectives were to determine the
following:

        1. Were reported costs allowable, allocable and reasonable in accordance with
           Federal requirements?

        2. Did CWE establish the EEC and provide employment services to participants
           and employers impacted by the events of September 11, 2001?

        3. What were the outcomes for participants?

Scope

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

Fieldwork was conducted at CWE’s office located in New York, New York. Exit
conference was held with CWE officials on November 28, 2007. CWE comments on
the draft report, received on January 17, 2008, were incorporated into reported findings
and are included in their entirety in Appendix D. ETA declined to comment on the draft
report, but stated it would address report recommendations for monitoring during the
formal DOL resolution process.

For the grant period of April 1, 2002, through December 31, 2004, CWE reported total
costs of $32.4 million and participant enrollments of 24,195. We tested 85 percent of
total costs and 100 percent of total participants enrolled.




U.S. Department of Labor – Office of Inspector General                                  31
Report Number: 02-08-203-03-390
CWE Earmark Grant


Methodology

In planning and performing our audit, we considered internal controls of CWE’s earmark
grant by obtaining an understanding of the program’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our auditing procedures for the
purpose of achieving our objectives. Therefore, we evaluated the internal controls as
they pertained to grant participants’ eligibility, training and employment outcomes, and
whether reported costs were allowable, allocable and reasonable.

Our consideration of CWE’s earmark grant internal controls would not necessarily
disclose all matters that might be reportable conditions. Because of inherent limitations
in internal controls, misstatements, losses, or noncompliance may nevertheless occur
and may not be detected.

We reviewed CWE’s grant agreement, grant modifications, Federal Project Officer’s
monitoring reports, Federal FSR (SF-269), Quarterly Project Activity Reports, grant
Closeout Report, CWE’s general ledger transaction detail reports, the Indirect Cost
Negotiation Agreement, Single Audit reports, and other supporting documents. We
interviewed CWE staff and managers, and the U.S. Department of Labor’s Federal
Project Officer. We examined statistical and judgmental samples of the general ledger
transactions and reviewed supporting invoices and other documentation. Specifically,

     •   For Wage Subsidies, we selected a statistical sample (95 percent confidence
         level and +/- 7 percent sampling precision) and reviewed 168 of 906 transactions.
         We reviewed the employer files for documents demonstrating the employers
         qualified to receive subsidies. We also reviewed the invoices, employers’ payroll
         records, and negotiated contracts. Question costs are actual sample findings.

     •   To assess whether CWE established the EEC and provided employment
         services to eligible participants, we performed analytical tests of participant
         SSN’s for 23,005 enrollments, which included 20,513 documented enrollments
         and 2,492 duplicative enrollments. We performed judgmental samples of 234
         participants, and reviewed participants’ files for eligibility and enrollment forms.
         CWE did not provide the requested documentation for the statistical sample of
         100 participant files (95 percent confidence level and +/- 9 percent sampling
         precision). We were unable to assess participant outcomes because CWE did
         not maintain records.

     •   For Instructor Salaries’ costs, we reviewed 3 of the 49 transactions. CWE only
         provided invoices and class rosters for 2 of the 3 transactions. We reviewed the
         class rosters to verify the method of allocation cost.




32                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 02-08-203-03-390
                                                                      CWE Earmark Grant


Criteria

We tested compliance with Federal requirements using the following criteria:

   •   Workforce Investment Act, Public Law 105–220, August 7, 1998

   •   Executed grant agreement, as modified (AF-12214-02-60)

   •   29 Code of Federal Regulations (CFR) 95, “Grants and Agreements with
       Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations”

    • OMB Circular A-122, “Cost Principles for Non-Profit Organizations”




U.S. Department of Labor – Office of Inspector General                                33
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




34                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                                        CWE Earmark Grant


                                                                            APPENDIX C
ACRONYMS AND ABBREVIATIONS


   CFR                Code of Federal Regulations

   CWE                Consortium for Worker Education

   DOL                U.S. Department of Labor

   EEC                Emergency Employment Clearinghouse

   ETA                Employment and Training Administration

   FSR                Financial Status Report

   IAM CARES          International Association of Machinists Center for Administering
                      Rehabilitation and Employment Services

   NEG                National Emergency Grant

   OIG                Office of Inspector General

   OMB                Office of Management and Budget

   OTPS               Other Than Personal Service

   SNAP               Strategic Neighborhood Action Partnership

   SSA                Social Security Administration

   SSN                Social Security Number

   WIA                Workforce Investment Act




U.S. Department of Labor – Office of Inspector General                                   35
Report Number: 02-08-203-03-390
CWE Earmark Grant




                    THIS PAGE INTENTIONALLY LEFT BLANK




36                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant


                                                            APPENDIX D
GRANTEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                 37
Report Number: 02-08-203-03-390
CWE Earmark Grant




38                  U.S. Department of Labor – Office of Inspector General
                                        Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




U.S. Department of Labor – Office of Inspector General                 39
Report Number: 02-08-203-03-390
CWE Earmark Grant




40                  U.S. Department of Labor – Office of Inspector General
                                        Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




U.S. Department of Labor – Office of Inspector General                 41
Report Number: 02-08-203-03-390
CWE Earmark Grant




42                  U.S. Department of Labor – Office of Inspector General
                                        Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




U.S. Department of Labor – Office of Inspector General                 43
Report Number: 02-08-203-03-390
CWE Earmark Grant




44                  U.S. Department of Labor – Office of Inspector General
                                        Report Number: 02-08-203-03-390
                                                         CWE Earmark Grant




U.S. Department of Labor – Office of Inspector General                 45
Report Number: 02-08-203-03-390
CWE Earmark Grant




46                  U.S. Department of Labor – Office of Inspector General
                                        Report Number: 02-08-203-03-390
